&

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklel egalbriefs. com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com
No.
HANH THAI WILLIAMS,
Petitioner,
v.
SUCCESSION OF FEED LANGFORD HOUSTON,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 15th day of August, 2019, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
HANH THAI WILLIAMS
Pro Se
10010 Feny Creek Drive
Shreveport, Louisiana 71106
(318)393-5872
williamshanh@gmail.com

RECEIVED
AUG 1 9 2019
OFFICE OF THE Ct-ERK
SUPREME COURT, U.S.

Subscribed and sworn to before me this 15th day of August, 2019.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24,2020

>

\
»
>

Notary Public

Affiant

38431

SERVICE LIST

Marjorie L. Frazier
Roger Joseph Naus
Seth M. Moyers
Charles E. Tabor
John McGinty Frazier
Wiener, Weiss & Madison
330 Marshall Street, Suite 1000
Shreveport, Louisiana 71101
(318)226-9100
Attorneys for Respondent, Armand L. Roos in his capacity as
Dative Independent Executor of the Succession of Fred Langford Houston

